March 2005
Report No. 05-012


Division of Supervision and Consumer
Protection’s Process for Identifying
Current and Future Skill and
Competency Requirements




             eral
           EVALUATION REPORT
                                                                                                                    Report No. 05-012
                                                                                                                         March 2005

                                      Division of Supervision and Consumer Protection’s Process for
                                      Identifying Current and Future Skill and Competency
                                      Requirements

                                      Results of Evaluation

                                      DSC is engaging in workforce planning activities consistent with OPM and GAO
Background and Purpose                guidance. Nevertheless, more work is needed to finalize and communicate DSC’s
of Evaluation                         workforce planning efforts to DSC employees and to all corporate managers.

In January 2001, and again in          Key Workforce Planning Principle and             Additional Work to be Done
January 2003, the U.S.                 DSC Efforts Underway
Government Accountability Office
(GAO) identified strategic human       Set Strategic Direction, and Ensure              DSC’s staffing strategy is in draft form. DSC
capital management as a                Alignment of Workforce Planning Efforts:         needs to incorporate the new Corporate
government-wide, high-risk area.       DSC’s workforce planning efforts are             Employee Program (a new program to
                                       aligned with the Corporation’s strategic         encourage employees to develop
The FDIC has acknowledged,             direction, and DSC is drafting a Long Term       competency in multiple FDIC business lines)
like many agencies, that it is         Staffing Strategy to describe current staffing   into the staffing strategy and finalize and
confronting human capital issues,      practices and future staffing goals.             communicate the staffing strategy to DSC
including how to provide                                                                employees and other corporate managers.
maximum flexibilities for
managers to attract, develop,          Identify Existing Workforce, and Assess          DSC’s staffing model is also in draft form.
evaluate, reward, and retain a         Staffing Needs: DSC maintains existing           DSC needs to validate that the model yields
high-quality workforce and to          workforce data to make short-term                accurate results and determine how the
manage succession effectively          staffing decisions and to assess future          model will be used under the Corporation’s
and efficiently as workload            workforce trends. DSC is developing a            existing planning and budgeting process.
demands change. Accordingly,           National Staffing Model that DSC plans to
the FDIC is developing a human         use in forecasting staffing needs.
capital framework to help ensure
the readiness of its staff to carry    Determine Critical Skills and                    DSC has not performed a formal skills
out the Corporation’s mission and      Competencies Needed, and Identify                assessment to identify whether and where
recognizes the need to engage in       Gaps: DSC is actively engaged in                 competencies gaps exist. However, regional
effective workforce planning.          activities to determine the critical skills      and field office managers generally have an
                                       and competencies needed to achieve               understanding of assigned employees’ skills
We reviewed the Division of            current and future goals and objectives          and abilities. DSC needs to determine if a
Supervision and Consumer               and to determine existing and future skills      formal skills assessment is needed.
Protection (DSC) because it            gaps.
accounts for more than one-half
of all FDIC employees and              Develop Strategies for Addressing Gaps:          DSC, and the Corporation as a whole, does
because it is a primary business       DSC is developing and has employed               not have a centralized competencies and
line responsible for ensuring the      workforce strategies to address identified       skills repository for DSC employees. The
safety and soundness of insured        gaps, and its efforts are aligned with           FDIC needs to assess whether an existing
financial institutions and for         broader corporate human capital goals.           training system could be enhanced to serve
protecting consumers’ rights.                                                           as a corporate competencies repository.

Our objectives were to assess          Monitor and Evaluate Progress: DSC has           DSC’s Long Term Staffing Strategy does not
DSC’s efforts to: (1) determine        several mechanisms for monitoring and            adequately address how DSC will monitor
critical skills and competencies       evaluating the success of its workforce-         and evaluate the success of its workforce
needed to achieve current and          related initiatives.                             planning initiatives. DSC needs to define,
future corporate goals and                                                              within the staffing strategy, how existing
objectives, (2) identify gaps in                                                        evaluation mechanisms interrelate and how
skills and competencies that                                                            the success of its various workforce planning
need to be addressed, and                                                               initiatives will be measured.
(3) develop strategies to address
current gaps in skills and            While workforce planning is a fundamental component of DSC’s overall management
competencies and future               process, DSC will need to ensure that its workforce planning strategy and initiatives
workforce needs.
                                      fit into the FDIC’s corporate workforce plan. In this regard, the FDIC’s Division of
We used Office of Personnel           Administration plans to issue guidance that FDIC divisions and offices can use to
Management (OPM) and GAO              facilitate workforce planning efforts.
guidance to evaluate DSC’s
workforce planning efforts.           DSC generally concurred with our five report recommendations that correspond to
To view the full report, go to        each key principle listed above to enhance DSC’s workforce planning efforts.
www.fdicig.gov/2005reports.asp
Federal Deposit Insurance Corporation                                                                    Office of Audits
801 17th Street NW, Washington, DC 20434                                                    Office of Inspector General




DATE:                                  March 18, 2005

MEMORANDUM TO:                         Michael J. Zamorski, Director
                                       Division of Supervision and Consumer Protection




FROM:                                  Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                       Assistant Inspector General for Audits

SUBJECT:                               Division of Supervision and Consumer Protection’s
                                       Process for Identifying Current and Future Skill and
                                       Competency Requirements
                                       (Report No. 05-012)


The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall evaluation results. Our evaluation of your response is incorporated into
the body of the report, and your response is included, in its entirety, as an appendix to the report.

Your response adequately addressed the five recommendations to the Division of Supervision
and Consumer Protection. The five recommendations are considered resolved, but they will
remain undispositioned and open for reporting purposes until we determine that the agreed-to
corrective actions have been implemented and are effective.

If you have questions concerning the report, please contact Stephen M. Beard, Deputy Assistant
Inspector General for Audits, at (202) 416-4217, or Marshall Gentry, Director, Corporate
Evaluations, at (202) 416-2919. We appreciate the courtesies extended to the evaluation staff.

Attachment
                                                                    Table of Contents




                          Table of Contents
RESULTS IN BRIEF                                                                   1

BACKGROUND                                                                         3
    Key Steps for Effective Strategic Workforce Planning                           3
    Workforce Challenges Identified by the FDIC                                    4
    Workforce Planning for the Future                                              5

EVALUATION RESULTS                                                                 6
  Strategic Direction and Alignment of Workforce Planning Efforts                  6
     Integration With Planning and Budgeting Process                               7
     Human Resources Committee                                                     8
     Process Redesign Efforts                                                      8
     Long Term Staffing Strategy                                                   9
     Recommendation 1                                                              9

   Identifying Existing Workforce and Assessing Staffing Needs                     9
      Systems for Identifying Staffing Needs                                      10
      DSC National Staffing Model                                                 11
      Recommendation 2                                                            12

   Determining Critical Skills and Competencies Needed to Achieve Current and     12
   Future Goals and Objectives and Identifying Skills and Competencies Gaps
     Current Workforce Planning Efforts                                           13
     Workforce Planning for the Future                                            15
     Need for a Formal Skills Assessment                                          15
     Recommendation 3                                                             16

   Strategies for Addressing Gaps                                                 16
      Corporate Initiatives to Reshape the Organization                           17
      DSC Strategies for Preparing Its Workforce and Addressing Identified Gaps   19
      Need for a Centralized Competencies Repository                              21
      Recommendation 4                                                            22

   Monitoring and Evaluating Progress                                             22
     Mechanisms for Monitoring and Evaluating Corporate and
     Divisional Initiatives                                                       22
     Recommendation 5                                                             24

CORPORATION COMMENTS AND OIG EVALUATION                                           24

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                                     25

APPENDIX II: CORPORATION COMMENTS                                                 26

APPENDIX III: MANAGEMENT RESPONSES TO THE RECOMMENDATIONS                         29
                                                                      Table of Contents




TABLES:
Table 1: Summary of Evaluation Results                                               2
Table 2: Summary of DSC Process Redesign Efforts                                     8
Table 3: Systems Used by DSC in Workforce Planning                                  10
Table 4: Regional and Field Office Staffing Categories                              13
Table 5: Summary of Proposed Key Changes in the FDIC Workforce 21 Act of 2004       18
Table 6: Regional Directors Memoranda for Specialty Examiner Positions              20
Table 7: Examples of Divisional Initiatives Related to Human Capital or             23
         Workforce Planning

FIGURES:
Figure 1: FDIC Employment Shares by Division                                         4
Figure 2: Strategic Alignment of DSC’s Workforce Planning Process                    6
Figure 3: Excerpts from DSC’s Review of Promotion, Evaluation, and                  14
          Selection Project


Acronyms
ARD          Assistant Regional Director
ARIS         Automated Regional Information System
BSA          Bank Secrecy Act
CEP          Corporate Employee Program
CHRIS        Corporate Human Resources Information System
COO          Chief Operating Officer
DIR          Division of Insurance and Research
DIT          Division of Information Technology
DOA          Division of Administration
DOF          Division of Finance
DRR          Division of Resolutions and Receiverships
DSC          Division of Supervision and Consumer Protection
ECEP         Examiner Continuing Education Program
EEO          Equal Employment Opportunity
FAO          Government Accountability Office
FDIC         Federal Deposit Insurance Corporation
FOMIS        Field Office Management Information System
GAO          Government Accountability Office
GS           General Schedule
HRC          Human Resources Committee
IS           Information System
IT           Information Technology
MERIT        Maximum Efficiency Risk-Focused Institution Targeted
OIG          Office of Inspector General
OMB          Office of Management and Budget
OPM          Office of Personnel Management
RDM          Regional Directors Memorandum
ROPES        Review of Promotion, Evaluation, and Selection Project
SES          Senior Executive Service
SME          Subject Matter Expert
SQRA         Senior Quantitative Risk Analyst
ViSION       Virtual Supervisory Information on the Net
                                                                                              Results in Brief



Results in Brief
WHY WE DID THIS EVALUATION

Last year, we reported that the Federal Deposit Insurance Corporation’s (FDIC) overall human
capital framework addressed the underlying human capital concepts that the Office of Personnel
Management (OPM), Office of Management and Budget (OMB), and the U.S. Government
Accountability Office (GAO) consider vital to successful human capital management. Our 2004
evaluation1 focused on the FDIC’s broad human capital framework; this evaluation focuses on
workforce planning in one of the FDIC’s business line divisions, the Division of Supervision and
Consumer Protection (DSC), which is responsible for examining and supervising insured
financial institutions to ensure they operate in a safe and sound manner, that consumers' rights
are protected, and that FDIC-supervised institutions invest in their communities.

EVALUATION OBJECTIVE AND APPROACH


The objective of this evaluation was to assess DSC’s efforts to:

•   determine critical skills and competencies needed to achieve current and future corporate goals
    and objectives,
•   identify gaps in skills and competencies that need to be addressed, and
•   develop strategies to address current gaps in skills and competencies and future workforce
    needs.

We used the OPM’s Workforce Planning Model and GAO guidance to evaluate DSC’s workforce
planning efforts. Our evaluation did not include assessing the FDIC’s overall workforce planning
process other than to gain a basic understanding of the corporate process and a perspective of
DSC’s activities relative to corporate-wide initiatives. Additionally, our evaluation did not include
assessing the appropriateness of DSC’s decisions resulting from its workforce planning efforts.
We evaluated DSC’s workforce planning process and activities as of November 30, 2004.
Appendix I describes our objective, scope, and methodology in detail.

WHAT WE FOUND


DSC is engaging in workforce planning activities consistent with OPM and GAO guidance.
Nevertheless, more work is needed to finalize and communicate DSC’s workforce planning
efforts to DSC employees and to corporate managers. Table 1 presents the key principles of
workforce planning that we identified based on our review of GAO and OPM guidance, DSC’s
efforts to implement those principles, and our findings on work remaining to be done.

As we reported in 2004, the Corporation, as a whole, lacks a human capital blueprint but is
working on developing such a document.2 The FDIC’s Division of Administration (DOA) also
plans to issue guidance that divisions and offices can use to facilitate workforce planning efforts.
Accordingly, while workforce planning is a fundamental component of DSC’s overall
1
  Evaluation Report 04-005, The FDIC’s Strategic Alignment of Human Capital, dated January 23, 2004.
2
  Report 04-005 recommended that FDIC develop a human capital blueprint to delineate roles and responsibilities for
human capital, communicate goals and strategies to stakeholders, define performance measures, and establish a
process for monitoring and reporting on the effectiveness of human capital initiatives.
                                                                                                    Results in Brief


management process, DSC will need to ensure that its workforce planning strategy and
initiatives fit into the FDIC’s corporate workforce plan.

Table 1: Summary of Evaluation Results
 Key Principle              DSC Efforts Underway                            Additional Work to be Done
 Set Strategic Direction,   DSC’s workforce planning efforts are            DSC’s staffing strategy is in draft form. DSC
 and Ensure Alignment       aligned with the Corporation’s strategic        needs to incorporate the new Corporate
 of Workforce Planning      direction, and DSC is drafting a Long           Employee Program(a) into the staffing
 Efforts.                   Term Staffing Strategy to describe current      strategy, finalize the staffing strategy, and
                            staffing practices and future staffing          communicate the staffing strategy to DSC
                            goals.                                          employees and all corporate managers.
 Identify Existing          DSC maintains existing workforce data to        DSC’s staffing model is also in draft form.
 Workforce, and             make short-term staffing decisions and to       DSC needs to validate that the model yields
 Assess Staffing            assess future workforce trends. DSC is          accurate results and determine how the
 Needs.                     developing a National Staffing Model that       model will be used under the Corporation’s
                            DSC plans to use in forecasting staffing        baseline, or top-down, planning and
                            needs over 3-year periods.                      budgeting process.

 Determine Critical         DSC is actively engaged in activities to        DSC has not performed a formal skills
 Skills and                 determine the critical skills and               assessment to identify whether and where
 Competencies Needed        competencies needed to achieve current          competencies gaps exist. Notwithstanding,
 to Achieve Current         and future goals and objectives and to          regional and field office managers generally
 and Future Goals and       determine existing and future skills gaps.      have an understanding of assigned
 Objectives, and                                                            employees’ skills and abilities. DSC needs to
 Identify Skills and                                                        determine if a formal skills assessment is
 Competencies Gaps.                                                         needed.

 Develop Strategies for     DSC is developing workforce strategies to       DSC, and the Corporation as a whole, does
 Addressing Gaps.           address identified gaps, and its efforts are    not have a centralized competencies and
                            aligned with broader corporate human            skills repository for DSC employees. The
                            capital goals. Strategies include:              FDIC’s move to develop “corporate
                            • The Examiner Training Program and             employees” who possess competencies in
                            • DSC’s participation in the Corporate          multiple business lines will only increase the
                              Recruitment Program.                          need for a corporate skills repository. The
                            DSC employed these strategies to                FDIC’s existing training database could be
                            address identified gaps related to the          enhanced to serve as a corporate
                            implementation of Basel II and Bank             competencies repository.
                            Secrecy Act compliance.(b)

 Monitor and Evaluate       DSC has several mechanisms, such as             DSC’s Long Term Staffing Strategy does not
 Progress.                  divisional initiatives in support of the FDIC   adequately address how DSC will monitor
                            Chairman’s corporate performance                and evaluate the success of its workforce
                            objectives, training and recruiting             planning initiatives. While the FDIC and DSC
                            oversight entities, and the DSC                 have a number of mechanisms to monitor
                            Scorecard, for monitoring and evaluating        and measure success of corporate programs,
                            the success of its workforce-related            DSC needs to define, within the staffing
                            initiatives.                                    strategy, how these mechanisms interrelate
                                                                            and how the success of its various workforce
                                                                            planning initiatives will be measured.
Source: OIG Analysis.
(a) The Corporate Employee Program is a new program to encourage and reward employees for pursuing
cross-divisional opportunities and developing competency in multiple FDIC business lines.
(b) Basel II and Bank Secrecy Act are defined on page 15 of this report.

Our report contains five recommendations corresponding to each key principle to enhance
DSC’s workforce planning efforts.




                                                            2
                                                                                                   Background



Background
In January 2001, and again in January 2003, the GAO identified strategic human capital
management as a government-wide, high-risk area because of the lack of attention to human
capital management. Specifically, GAO has
reported that in the wake of extensive              What is workforce planning?
downsizing during the early 1990s, done
                                                    Workforce planning is an important activity that will enable
largely without sufficient consideration of the     agencies to:
strategic consequences, agencies are
experiencing significant challenges to              •   Determine the workforce needed for tomorrow's success.
deploying the right skills, in the right places, at •   Compete in today's market, providing a foundation to
the right time.                                         actively train, recruit or restructure resources.
                                                      •    Bridge knowledge gaps due to attrition.
                                                      •    Achieve maximum organizational effectiveness.
Agencies are also facing a growing number of          •    Take all of the separate initiatives out of the stovepipes
employees who are eligible for retirement and              and put them in an integrated whole as part of an overall
are finding it difficult to fill certain mission-          plan.
critical jobs—a situation that could significantly
                                                      Benefits to the organization:
drain agencies’ institutional knowledge. Other
factors such as emerging security threats,            •    Workforce planning is an organizational development
rapidly evolving technology, and dramatic                  activity that will help us get the right people at the right
shifts in the age and composition of the                   place at the right time.
overall population exacerbate the problem.
                                                      Benefits to managers:
Such factors increase the need for agencies
to engage in strategic workforce planning to          •    Managers will have the human resource information they
transform their workforces so that they will be            need to manage their programs more effectively.
effective in the 21st century.
                                                      Source: OPM Workforce Planning Desk Aid.

Key Steps for Effective Strategic
Workforce Planning

There are a number of models for conducting workforce planning. For example, in 1999, OPM
published a five-step model that suggests agencies should:

•   define a strategic direction,
•   assess the current and future workforce,
•   develop an action plan,
•   implement action plans for closing identified gaps in future workforce needs, and
•   monitor and evaluate the effectiveness of the workforce action plan.

In October 2002, OPM released a Human Capital Assessment and Accountability Framework that
expands on and integrates previous guidance on workforce planning, such as the 1999 model.
According to the OPM framework, an agency should have an explicit workforce planning strategy
that is linked to the agency's strategic and program planning efforts to identify its current and future
human capital needs, including:

•   the size of the workforce,
•   workforce deployment across the organization, and
•   competencies needed for the agency to fulfill its mission.




                                                     3
                                                                                                 Background


In December 2003, GAO identified the following five key principles for effective strategic
workforce planning:

    •   Involve top management, employees, and other stakeholders in developing,
        communicating, and implementing the strategic workforce plan.
    •   Determine the critical skills and competencies that will be needed to achieve current and
        future programmatic results.
    •   Develop strategies that are tailored to address gaps in number, deployment, and
        alignment of human capital approaches for enabling and sustaining the contributions of
        all critical skills and competencies.
    •   Build the capability needed to address administrative, educational, and other
        requirements important to support workforce planning strategies.
    •   Monitor and evaluate the agency’s progress toward human capital goals and the
        contribution that human capital results have made toward achieving programmatic
        results.

Workforce Challenges Identified by the FDIC

The Corporation has acknowledged, as have many agencies, that it is confronting human capital
issues, including how to provide maximum flexibilities for managers to attract, develop, evaluate,
reward, and retain a high-quality workforce and to manage succession effectively and efficiently as
workload demands change in the future. Indeed, the FDIC has reported that in the next 5 years,
more than 20 percent of current permanent employees will become eligible to retire, including
many of the FDIC’s most experienced managers and technical experts. The FDIC has stated that
this will require strategies for replacing these essential human resources and the expertise that
may be lost through retirements. The FDIC has also announced downsizing and/or transformation
initiatives for several divisions. Accordingly, the Corporation’s Division of Administration (DOA) is
developing a human capital framework to help ensure the readiness of its staff to carry out the
corporate mission and recognizes the need to engage in effective workforce planning.

DSC staffing is a major
component of the FDIC’s annual           Figure 1: FDIC Employment Shares by Division
budget, and DSC has reported                                               Other 3%
                                                        DIR 4% OIG 3%
that it is in the best interest of the         DOF 4%                                               DSC 51%
division and the Corporation to
                                           DIT 7%
have a clear and coherent staffing
strategy for DSC that will enable
the organization to plan for and         DOA 8%
respond to future events and
contingencies. DSC staffing
accounts for 51 percent of the              Legal 10%
FDIC’s workforce as shown in
                                                            DRR 10%
Figure 1.
                                          Source: Corporate Human Resources Information System




                                                    4
                                                                                                   Background


Workforce Planning for the Future

As part of the 2005 planning and budget formulation process, senior management held strategic
discussions on how the Corporation will conduct its supervision, insurance, and receivership
management functions over the next 3 to 5 years. In August 2004, the Deputy to the Chairman
and Chief Operating Officer (COO) issued a memorandum entitled, “Workforce Planning for the
Future,” which described the preliminary conclusions about the Corporation’s future business
model and workforce profile. Demands placed on the Corporation by rapidly changing external
and internal factors will require effective means for addressing any resource imbalances with
minimal disruption to employees and managers.

    Preliminary Conclusions on the FDIC’s Future Business Model

    •     Industry consolidation will continue to decrease the aggregate number of insured
          depository institutions for which we are the primary federal supervisor.
    •     Concentration of risk to the insurance funds in the largest banking organizations (largely
          supervised by other regulators) will grow more pronounced over time.
    •     A two-tiered banking system (mega/large vs. small/community) appears likely to
          emerge, which may have operational implications for all of our business lines.
    •     Growing complexities within the industry will require a more integrated, corporate
          approach to risk assessment and risk mitigation.
    •     The use of technology will continue to improve operational efficiency within both the
          banking industry and the FDIC.
    •     Most existing skill sets within the FDIC will remain relevant to our future work, but will
          have to be augmented by new skill sets not now available in our workforce.
    •     The FDIC of the future will be a smaller, more flexible agency.

    Source: Chief Operating Officer’s August 6, 2004 E-mail to the Corporation.


The preliminary conclusions reflect the continuation of trends that have been ongoing for
several years. The COO stated that change has become the one constant, and the speed with
which significant changes are occurring within the industry makes it essential that the FDIC
have increased flexibility to respond rapidly to changes in order to accomplish its core mission.

To assess the implications of the preliminary conclusions outlined above, the COO asked each
of the three business line divisions3 to complete the following steps:

•       review business-line workload assumptions and expected future business processes;
•       identify the skill sets necessary to meet our mission going forward, based on these
        assumptions and expected future business processes;
•       conduct an analysis of existing skill sets and compare them to future skill requirements;
•       design staffing strategies to close any gaps between existing and required skill sets; and
•       develop succession management plans for an orderly transition of knowledge to future
        corporate leaders.

These steps are consistent with the fundamental principles of workforce planning and are those
steps that DSC is or will be addressing.


3
 The three business line divisions are DSC, the Division of Insurance and Research (DIR), and the Division of
Resolutions and Receiverships (DRR).




                                                         5
                                                                                           Evaluation Results



Evaluation Results
Strategic Direction and Alignment of Workforce Planning Efforts

The Corporation’s strategic vision has been influenced by the pace and scope of industry
changes. Accordingly, over the past several years, DSC has been reshaping its workforce to
respond to the trends in the financial services sector and ensure that resources are positioned
to work effectively and efficiently and are directed to areas of the greatest risks. Figure 2
illustrates the strategic alignment of DSC’s workforce planning process, which aims at
effectively deploying resources to areas of greatest risk.

Figure 2: Strategic Alignment of DSC’s Workforce Planning Process

                                                      Strategic
                                                      Planning

                                                      Corporate
                                                    framework for
                                                  implementing the
          External                                 FDIC’s mission-                           Corporate
          Workload                                related activities.                      Budget Process
          Analysis
                                                                                              Process of
          Process for                                                                      identifying needs
     assessing trends in                           Assessing the Current                    and prioritizing
         the financial                                  Workforce                             resources.
       services sector.


                                    Developing
                                                      Right People,        Analyzing the
                                     Strategies
                                                       Right Place,          Future
                                    To Address           Right Time
                                                                            Workforce
                                       Gaps
     Corporate Human                                                                         DSC Process
          Capital                                                                             Redesign
        Framework
                                                    Identifying "Gaps"
                                                                                               Initiative to
     Activities designed                                                                          identify
     to create a flexible                                                                  efficiencies and be
         permanent                                                                             proactive in
         workforce.                                                                         dealing with the
                                                        GOAL                                       future.

                                                   ACHIEVING
                                                  THE MISSION




Source: OIG analysis of Corporate and DSC planning processes.




                                                          6
                                                                                         Evaluation Results


Strategic alignment of DSC’s workforce planning process is largely achieved by participation in
the annual corporate planning process, ongoing involvement with the FDIC’s Human Resources
Committee (HRC); and through DSC-structured process redesign efforts.

According to OPM’s Human Capital Standards, an agency should approach workforce planning
strategically, basing decisions on mission needs and customer expectations, workload factors,
and workforce capabilities. OPM identified these key indicators related to strategic workforce
planning:

      •    Must be an ongoing process.
      •    Must be a structured and deliberate effort.
      •    Recognizes thinking strategically about the future and how to get there, including
           questioning fundamental assumptions about how work is done and who should do it.
      •    Includes not only senior managers, but all employees in the effort.
      •    Includes the full spectrum of actions and activities from aligning the organization behind
           clear long-term goals to putting in place organizational and personal incentives,
           allocating resources, and developing the workforce to achieve the desired outcomes.

Moreover, GAO has reported that successful strategic workforce planning requires: (1) top
agency management to set the overall direction and goals of workforce planning, (2) the
involvement of employees and other stakeholders in developing and implementing future
workforce strategies, and (3) the development of a communication strategy to create shared
expectations, promote transparency, and report progress.4

Integration With Planning and Budgeting Process

We reported in 2004 that the FDIC has integrated its strategic human capital framework into the
FDIC’s overall corporate planning process.5 In brief, the FDIC uses an integrated planning
process whereby guidance and direction are provided by senior management and developed
with input from program personnel. DSC staffing requirements are fundamentally driven by
statutory examination requirements for safety
and soundness and community reinvestment,
compliance examination frequency policy,           DSC Mission Statement
and the general condition of the banking           Promote stability and public confidence in the
industry. DSC's workforce planning efforts         nation's financial system by:
are directed from DSC headquarters and             •    examining and supervising insured
consider regional office input.                         financial institutions to ensure they
                                                                 operate in a safe and sound manner, that
                                                                 consumers' rights are protected, and that
DSC resource requirements are identified                         FDIC-supervised institutions invest in
through the planning and budgeting process                       their communities and
that engages the Corporation’s staff and
senior managers each year in a review of          •   providing timely and accurate deposit
                                                      insurance information to financial
projected workload, planned information               institutions and the public.
technology, proposed annual performance
objectives, and other divisional initiatives.     Source: DSC Web Site.
Business requirements, industry information,
human capital, technology and financial data are considered in preparing annual performance

4
    GAO-04-39, Human Capital Key Principles for Effective Strategic Workforce Planning, dated December 2003.
5
    OIG Report No. 04-005, The FDIC’s Strategic Alignment of Human Capital, dated January 23, 2004.




                                                         7
                                                                                             Evaluation Results


plans and budgets. Factors influencing the FDIC’s plans include changes in the financial
institution industry, program evaluations and other management studies, and prior-period
performance.

Human Resources Committee

In addition to the annual corporate planning process, the FDIC’s HRC has become a key
element of the Corporation’s human capital planning framework and is responsible for
developing an integrated, comprehensive approach to human capital issues. The HRC is
composed of Deputy Directors from each of the FDIC’s driver and support divisions. The HRC
meets for several hours each week and serves as a corporate clearinghouse for human capital
issues. Specifically, the HRC provides strategic direction and leadership for workforce planning
at the corporate level and is responsible for developing policy recommendations and monitoring
the implementation of human resources initiatives. Policy recommendations are vetted among
the committee members who share information with their respective division directors and are
typically developed through consensus and are generally discussed with the COO, Chief
Financial Officer, and the Deputy to the Chairman. The DSC Deputy Director, Strategic
Planning, Budget, Reporting and Special Projects, is one of the HRC members; her participation
on the HRC helps to ensure that DSC’s workforce planning efforts are aligned with the
corporate-level human capital framework.

Process Redesign Efforts

Consistent with the corporate strategy, DSC is positioning its workforce to reflect the trends in
the financial services sector toward larger, more complex financial institutions. In 2000, the
DSC Director began the first in a series of structured process redesigns to proactively prepare
for the future as well as examine existing processes to improve efficiency. Table 2 summarizes
the process redesign efforts undertaken since 2000 under the direction of the current DSC
Director.

Table 2: Summary of DSC Process Redesign Efforts
    Initiative*                                               Purpose
          I          Comprehensive review of entire approach to completing examinations.
                     Reviewed ways to focus examination efforts on institutions that needed the most attention
          II         and reduce the time and effort on institutions that were doing well and did not need as much
                     oversight.
         III         To continue increasing operational efficiency by empowering frontline managers.
            IV          To evaluate, review and revise DSC’s field examination policies and practices.
Source: OIG Analysis.
*In the late 1990s, the former Division of Supervision created a “redesign” committee that focused on how work was
performed in the regional and headquarters offices. The case manager program (defined on page 14) was created as a
result of that effort.

DSC’s process redesign efforts are consistent with the FDIC’s broad corporate goal of more
effectively supervising and serving a rapidly changing banking industry. Process redesign efforts
have also resulted in re-delegations of authority related to actions such as signature of examination
reports at the field-office- rather than regional-office-level. Such re-delegation efforts are consistent
with OPM and GAO workforce planning suggestions. Employees from across the division and
Corporation have been participants in the various redesign efforts. In a memorandum dated
August 2004 to DSC employees, the Director, DSC, acknowledged that the division would continue




                                                          8
                                                                                     Evaluation Results


positioning its workforce to reflect banking industry trends but noted that DSC’s strategic efforts
have been undertaken without compromising its core principles of on-site bank supervision and
compliance and consumer protection responsibilities and programs.

Long Term Staffing Strategy

In October 2003, DSC began developing a Long Term Staffing Strategy (staffing strategy) that
outlines past and current DSC staffing practices and goals and strategies for field, regional, and
headquarters staffing. DSC officials characterized the staffing strategy as a first attempt to
comprehensively document DSC’s process for assessing the composition of staffing. The
staffing strategy is a result of an analysis of past and current DSC staffing practices and
provides a perspective on statutory requirements and future challenges presented from inherent
fluctuations in examination schedules, emerging issues affecting future skills present at the time
the strategy was formulated, and factors DSC has identified as necessary components of its
future staffing equation (nature of examinations, reduced volume of examinations due to
consolidation of financial institutions, and
                                                      DSC Staffing Goals
duration of examinations). The staffing
strategy raises issues for consideration,             1. Be sufficient to accomplish mission.
including hiring and recruitment and training         2. Have direct linkage to workload drivers within the
and makes recommendations for further                    Division.
review of these areas.                                3. Allow flexibility to manage staffing resources.
                                                        4.   Normalize peak workloads.
                                                        5.   Achieve better efficiency in managing human
DSC officials are currently working to update                resources.
the staffing strategy. DSC outlined several             6.   Encourage cross-training.
staffing goals for aligning staffing with mission-      7.   Achieve transparency.
                                                        8.   Replenish human capital.
related requirements and corporate goals,
which are consistent with OPM and GAO                   Source: DSC’s Long Term Staffing Strategy dated
workforce planning guidance. However, the               October 2003.
staffing strategy needs to be finalized and
communicated to DSC employees and DSC corporate managers. As discussed later in this report,
the COO initiated a new Corporate Employee Program (CEP) in October 2004 to cross-train
selected FDIC employees in multiple FDIC business lines. DSC representatives indicated the
staffing strategy will need to be revised to reflect the new CEP.

Recommendation

1. We recommend that the Director, DSC, incorporate discussion of the new Corporate
   Employee Program into the staffing strategy, finalize the staffing strategy, and communicate
   the staffing strategy to DSC employees and all DSC corporate managers.


Identifying Existing Workforce and Assessing Staffing Needs

DSC has processes in place for periodically analyzing its current workforce to identify key
functions supporting its mission, assess the skills and competencies necessary to meet its
mission, and determine the size of the workforce and its deployment across the organization.
Specifically, DSC collects data to identify the current workforce components, emerging risk to
the banking industry, and environmental risk that affect DSC’s workload and future human




                                                    9
                                                                                          Evaluation Results


capital needs. DSC uses the data to make short-term staffing decisions and to assess future
workforce trends. DSC is also working to develop a National Staffing Model that can be used to
forecast staffing needs.

As part of workforce planning, OPM and GAO guidance suggests that agencies perform
periodic analysis of workforce demographics, including indicators such as size; distribution of
workforce by grade/series/geographic locations; types of positions occupied; pay plan; veteran,
gender, race, and national origin representation; and average age and grade. Staffing data
showing trends in appointments, promotions, conversions, separations, and retirements should
be analyzed regularly, and decisions should be based on documented data.

DSC has engaged in workforce planning for many years to ensure that it has enough
examiners, in the right place, with the appropriate level of experience, to carry out is statutory
mission-related requirements. For example, determining the current resources and workload
and assessing projected resources and workload are a fundamental part of managing DSC’s
responsibilities with regard to safety and soundness and compliance examinations. In addition,
DSC has routinely factored industry trend analysis data from DIR into DSC’s workload
assessments.

DSC has also documented, in the staffing strategy, assumptions related to employee attrition,
promotion time frames, and recruiting. The staffing strategy also includes targets related to the
ratios of examiners to managers in regional and field offices.

Systems for Identifying Staffing Needs

DSC relies on various systems and scheduling tools to capture critical data on its existing
workforce and projected workload, including information about attrition and experience level of
staff. Also, DSC maintains a list of commissioned bank examiners in the field offices for the
purpose of scheduling bank examinations to ensure the appropriate level of skills for each bank
examination. Table 3 identifies some of the systems used by DSC in workforce planning.

Table 3: Systems Used by DSC in Workforce Planning
                System                                 Relationship to Workforce Planning
 Corporate Human Resources                CHRIS contains employee-specific information.
 Information System (CHRIS)
 Field Office Management Information      FOMIS contains a schedule of statutory bank examinations
 System (FOMIS)                           (examinations required by laws and regulations) and is an
                                          interactive scheduling tool that estimates examiner resources
                                          required for the exam.
 Automated Regional Information           ARIS contains automated scheduling and review aspects and can
 System (ARIS)                            be searched using desired criteria or reviewed and sorted by
                                          Assistant Regional Director (ARD), case manager, or field office.
 Virtual Supervisory Information on the   ViSION provides the status of examinations in progress.
 Net (ViSION)
Source: OIG analysis.

For example, information from CHRIS includes position description, grade level, and retirement
eligibility information. CHRIS data is also used by DSC headquarters to identify occupied
positions. FOMIS identifies required bank examinations for 5 years along with the number of
estimated hours to complete an examination. By looking at the schedule of statutory bank
examinations in FOMIS, regional officials and field supervisors can estimate the workload of




                                                       10
                                                                             Evaluation Results


bank examinations, including the dates of the examinations and the number of hours needed to
complete the examinations. However, statutory workload is not static and differs based on
frequently changing bank circumstances (e.g., amount of deposits, emerging issues, etc).
FOMIS provides limited information to regional officials and the field supervisor who makes
assumptions, based on historical knowledge or reported emerging issues, about the number of
examiners and the skills needed for the examination.

With regard to the deployment of staff, the regions have the autonomy to assign staff as
deemed necessary. For example, regional offices can deploy employees from one field office to
another. The field offices make their own staffing decisions, but each ARD is responsible for
overseeing staffing decisions. Regional officials stated that they will contact counterparts in
other regions to request assistance should short-term staffing needs arise. Generally, officials
stated that short-term staffing needs can be accommodated informally among the regions.
Longer-term staffing trends are monitored and evaluated as part of the annual corporate
planning process to determine whether there is a need to permanently adjust staffing levels.

DSC National Staffing Model

DSC began developing a National Staffing Model (model) in 2003. DSC intends for the model
to be a transparent and reliable forecasting tool to quantify the many variables that contribute to
DSC’s staffing needs for risk management and compliance examiners, including savings from
the Maximum Efficiency Risk-focused Institution Targeted (MERIT) examination process and
other risk-focusing initiatives for examinations. DSC’s strategy for managing human resources
and realizing efficiencies gained from risk-focusing initiatives includes adhering to the ranges
provided by the model. Management of vacancies will also be guided by the model. The model
does not estimate DSC headquarters or regional office staffing needs.

The model captures, for a 3-year period, a range of appropriate staffing. Variables include:

•   industry consolidation trends;
•   the number of problem institutions;
•   attrition and hiring forecasts;
•   contingencies, including shortfalls in state examination agreements;
•   new divisional or corporate initiatives;
•   hour utilization estimates;
•   supervisory time commitments; and
•   percentage of hours achieved for corporate performance goals.

DSC’s staffing strategy notes that the staffing range provided by the model is a general
guideline for managing the level of full-time employees throughout the 3-year period and grants
flexibility to manage staffing through normal fluctuations that occur over time. The staffing
strategy also notes that the model should be validated semiannually in conjunction with the six
DSC regions. DSC has also developed regional staffing models that follow the same format as
the National Staffing Model but utilize variables tailored to each region—such as regional
attrition and industry consolidation trends—to generate a range of appropriate regional staffing.
Results from the six regional models will serve as validation of the National Staffing Model.

DSC has submitted the model to the Division of Finance (DOF) for review. A DOF official
verified that DOF had reviewed the model, but noted that the model did not reflect DSC changes
to the MERIT program and that DOF would resume its review of the model once it reflects those




                                                11
                                                                            Evaluation Results


changes. The DOF official also noted that the model may need to be revised to address other
changes in DSC processes, such as the relationship manager program, a pilot program to
enhance the effectiveness of the examination process by allowing greater flexibility in the timing
and scope of examination activities. The official noted that DOF supported the continued
development and eventual use of the model.

We evaluated the model and concluded that it did not produce a range of results consistent with
DSC’s current authorized staff. DSC representatives acknowledged that the model still needs to
be validated to ensure that it delivers accurate results and that the model was not being used for
budget and planning purposes. The model is an important element in determining DSC staffing
needs and is consistent with GAO workforce planning guidance.

Recommendation

2. We recommend that the Director, DSC, validate the National Staffing Model to ensure that it
   yields accurate results, and begin using the model to estimate staffing needs.


Determining Critical Skills and Competencies Needed to Achieve
Current and Future Goals and Objectives and Identifying Skills and
Competencies Gaps

DSC has taken steps to define the critical skills and competencies required of its general and
specialty examiner workforce necessary to achieve corporate goals and objectives and to stay
abreast of rapid changes in the banking industry. In addition to position descriptions and a
well-defined examiner career path, DSC has developed benchmarks articulating desired skills
inventories by grade level for its risk management and compliance examiners. DSC has also
defined, in detailed position descriptions, the principal duties and responsibilities for case
managers and specialty examiners, such as information technology, trust, large bank, and fair
lending examiners. DSC is also working to identify new skills requirements and depth of
competencies needed to implement the FDIC’s emerging business model and to respond to
future changes in the banking industry. Although DSC has not performed a formal,
comprehensive skills assessment to identify competency and skills gaps, we concluded that
DSC regional management typically has an understanding of the skills and abilities of its
regional and field office staff, either through the regimented examiner commissioning process or
through knowledge of subject matter experts occupying specialty examiner positions.

Key principles in workforce planning include the determination of critical skills and
competencies. Competencies are descriptions of the skills and behaviors needed by staff
members and managers to effectively contribute to the overall mission and goals of the
organization. GAO has reported that the scope of agencies’ efforts to identify the skills and
competencies needed for their future workforces varies considerably, depending on the needs
and interests of a particular agency. The most important consideration is that the skills and
competencies identified are clearly linked to the agency’s mission and long-term goals
developed during the strategic planning process. Analysis of gaps between skills and
competencies currently needed and those that will be needed is critical to mapping out the
current condition of the workforce and deciding what needs to be done to ensure that the
agency has the right mix of skills for the future. The lack of fact-based gap analysis can
undermine an agency’s efforts to identify and respond to current and emerging challenges.




                                               12
                                                                             Evaluation Results


Current Workforce Planning Efforts

DSC staffing is largely driven by statutory examination requirements, compliance examination
frequency policy, and the general condition of the banking industry. For example, FDIC must
perform safety and soundness examinations for favorably rated, well-capitalized institutions with
less than $250 million in assets every 18 months. The FDIC also has alternating examination
agreements with most state banking authorities to extend the FDIC examination cycle for
favorably rated institutions to a maximum of 36 months. Specialty examinations, such as
information technology (IT) and trust examinations, are generally performed concurrently with
safety and soundness examinations.

DSC’s detailed position descriptions for risk management, compliance, and specialty examiners,
case managers and other positions define position duties, responsibilities, and knowledge
required by the position. In addition, DSC has defined skill and competency requirements of
certain positions through operational manuals and regional director memoranda and other
position-benchmarking initiatives. As shown in Table 4, 78 percent of DSC regional and field
staffing falls into the risk management and compliance examiner categories.

Table 4: Regional and Field Office Staffing Categories
 Title/Position                                    Staff              Percent of Total
 Management and Administrative                                  135                 6
 Risk Management Examiners                                    1,475                64
 Compliance Examiners                                           319                14
 Case Managers                                                  157                 7
 Review Examiners                                                40                 2
 Other Specialists
     Information Technology Examiners                    77
     Trust Examiners                                     25
     Financial Analysts                                  26
     Capital Markets                                      8
     Large Bank                                          8
     Fair Lending                                        6
     Miscellaneous                                       14
 Other Specialist - Subtotal                                    164                 7
 Total Field Staffing                                         2,290               100
Source: FDIC October 2004 Employee Counts.

Risk Management and Compliance Examiners: Mandatory requirements to perform supervisory
and compliance bank examinations, the banking crisis of the 1990s, and the resulting changes
to the banking industry influenced DSC to implement workforce planning practices, including the
identification of future skills and competencies. DSC has defined competencies for its cadre of
risk and compliance examiners through the Review of Promotion, Evaluation, and Selection
Project (ROPES). ROPES consists of a set of matrices for risk management and compliance
examiners that outlines the major job duties and responsibilities that a fully successful examiner
at each grade level should be capable of performing. Figure 3 presents an excerpt from the
ROPES project.




                                               13
                                                                                                               Evaluation Results


  Figure 3: Excerpts from DSC’s Review of Promotion, Evaluation, and Selection Project
                                             RISK MANAGEMENT – GRADE 12

       TASK GROUPS                                 BENCHMARKS and                              ACTIVITIES THAT MEASURE
    (order of importance)                         SUPPORTING TASKS                                BENCHMARKS AND
                                                                                                  SUPPORTING TASKS
Conducts On-Site                            Evaluates the bank's management.
(as appropriate)*                                                                           • Identifies potential violations and/or contraventions
                                                                                              or internal policy exceptions, if applicable, and
Bank Examinations.                          • Determines whether management is
                                                                                              prepares evaluative comments in accordance with
                                              competent to manage the affairs of the bank
                                                                                              outstanding guidance.
                                              (e.g., truthful and accurate).
* Note: As the business practices of DSC                                                    • Considers findings in the other components and
                                            • Determines the bank's compliance with
evolve, more bank examination work                                                            specialty areas.
                                              governing laws and regulations.
may be performed at a site other than the                                                   • Identifies substantive issues (issues that warrant
                                            • Assesses the accuracy of information
bank.                                                                                         further research, management's attention, and/or
                                              provided to the board of directors.
                                                                                              notification to the board of directors).
                                            • Determines whether there are inappropriate
                                                                                            • Follows outstanding guidance regarding the
Note:                                         insider/affiliate dealings.
                                                                                              evaluation of management (factors to consider) as
Administrative tasks as identified in the   • Determines whether bank practices and
                                                                                              outlined in the Manual of Examination Policies and
“Performs administrative tasks,               procedures correspond with board-approved
                                                                                              other outstanding guidance.
including maintaining records of work         policies.
                                                                                            • Assigns an appropriate management rating as
activities and hours of work” Task          • Determines adequacy and adherence to board
                                                                                              described in the Uniform Financial Institutions
Group below are considered to be              of director approved policies.
                                                                                              Rating System (UFIRS).
integral components of this Task Group.     • Determines adherence to U.S.A. Patriot Act.
                                                                                            • Prepares /maintains appropriate documentation to
Employees are expected to demonstrate       • Evaluates management’s ability and              support conclusions.
and maintain competency in all                willingness to correct issues identified in
administrative functions related to this                                                    • Assesses board knowledge, oversight, and
                                              formal or informal enforcement actions.
Task Group.                                                                                   involvement in bank affairs.
                                            • Assesses executive compensation programs
                                              for reasonableness, including deferred
                                              compensation and golden parachute
                                              agreements.

  Source: Regional Directors Memorandum (RDM) 2004-041, Benchmarks for Compliance and Risk Management
  Examiners.

  As shown, the matrices consist of major task groups, supporting benchmarks, activities, and
  performance measures for each grade. The matrices are intended to be used as guidelines by
  managers, supervisors, and examiners to facilitate skill development and assessment. The
  matrices do not replace existing performance evaluation practices or promotion decision
  processes, but complement existing guidelines by clearly articulating desired skills inventories at
  each grade level.

  Specialized Examiners: DSC continually evaluates industry changes to identify specialty skills
  and competencies needed to effectively examine increasingly complex financial institutions,
  develops and implements training programs to address the growing need for specialty
  examiners, and recruits examiners with specialty skills or experience not obtainable through in-
  house training. Regional and field office officials maintain records of examiners’ specialty
  training and experience. These records serve as a repository of skills that can be used by field
  and regional offices as the need arises. Finally, DSC maintains, on the regional Web sites, a list
  of examiners with specialty skills for the purpose of sharing acquired specialty skills with other
  regions and field offices when skills and competencies are required but not yet fully developed
  or when additional skills and competencies are needed.

  Case Managers: Case managers are the principal contacts and direct supervisory efforts for
  the largest, complex financial organizations. The case managers are responsible for assessing
  the risk to the deposit insurance funds posed by his/her assigned portfolio (caseload) of
  financial institutions. In conjunction with these responsibilities, the case manager is responsible
  for establishing and maintaining a close relationship with the appropriate state and federal



                                                                      14
                                                                                       Evaluation Results


supervisory agencies in the applicable geographic locations. Competencies for case managers
are documented in detailed position descriptions, and duties and responsibilities are established
in the Case Managers Procedures Manual.

Workforce Planning for the Future

In August 2004, the DSC Director issued a message to DSC employees on workforce planning
for the future. The Director stated that in response to the FDIC COO’s August 2004 message
on workforce planning, DSC is positioning its workforce to reflect the trends in the financial
services sector toward larger, more complex financial institutions through the dedication of
increased resources to quantitative risk assessment, the implementation of Basel II, and
enhanced on-site presence at some large institutions. The Director also noted that DSC is
devoting increased resources to combat terrorist financing and financial crimes. Specific
examples follow:

•   Basel II: In June 2004, the Basel Committee on Banking Supervision, of which the FDIC is
    an active member, published the International Convergence of Capital Measurement and
    Capital Standards, more commonly referred to as “Basel II,” an international effort to align
    capital standards with advances in financial institutions’ risk measurement and management
    practices, while ensuring that such institutions and the industry as a whole maintain
    adequate capital and reserves. While official implementation of Basel II will not occur until
    year-end 2006, DSC has established new Senior Quantitative Risk Analyst (SQRA)
    positions and has identified desirable knowledge, skills, and abilities for those positions.

•   Bank Secrecy Act: As part of regulatory efforts to ensure compliance with the Bank Secrecy
    Act (BSA), the FDIC committed to increase its level of BSA expertise and developed a
    computer-based training initiative for all risk management professional field staff and case
    managers. During testimony before the U.S. Senate, the FDIC Chairman reported that the
    FDIC was dedicating more staff to its Special Activities Section, which oversees the
    nationwide implementation and coordination of the FDIC’s BSA, anti-money laundering, and
    USA PATRIOT Act efforts.6 Additionally, the FDIC is designating and training additional
    BSA subject matter experts. The Chairman reported that the FDIC expected to double its
    number of BSA experts over the next 18 months and that the FDIC had more than 150 BSA
    experts nationwide.7 Consistent with this testimony, the FDIC’s 2005 budget included
    $400,000 to train 150 additional BSA specialists.

Need for a Formal Skills Assessment

DSC has made a number of efforts to identify the competencies and skills necessary to achieve
divisional and corporate goals and objectives and has established benchmarks and
commissioning requirements for its examiner workforce. However, DSC representatives
acknowledged that DSC has not conducted a formal skills assessment of its existing staff
against its desired competencies and skills to identify whether and where skills gaps exist.

As discussed earlier, GAO has reported that an analysis of gaps between skills and
competencies currently needed and those that will be needed is critical to mapping out the

6
  Uniting and Strengthening America by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism
(USA PATRIOT) Act of 2001, Public Law 107-56.
7
  June 3, 2004 statement of the FDIC Chairman on Regulatory Efforts to Ensure Compliance with the Bank Secrecy
Act before the U.S. Senate Committee on Banking, Housing, and Urban Affairs.




                                                      15
                                                                              Evaluation Results


current condition of the workforce and deciding work that needs to be done to ensure that the
agency has the right mix of skills for the future.

Despite the lack of a formal skills assessment, we concluded, based on interviews with DSC
managers and reviews of regional and field office Web Sites, that field and regional managers
generally have an understanding of the skills and abilities of regional and field office employees,
particularly for subject matter experts such as IT and trust examiners. This decentralized
means of assessing existing skills may be sufficient for the time being; however, the FDIC’s new
Corporate Employee Program, which will include cross-training existing DSC staff and
transferring employees to DSC from other divisions within the Corporation, will increase the
need for a formal skills assessment. Accordingly, DSC should work with DOA to determine
whether DOA plans to conduct comprehensive skills assessments that could span multiple
divisions.

Recommendation

3. We recommend that the Director, DSC, through consultation with DOA, evaluate whether
   DSC would benefit from conducting a formal skills assessment.


Strategies for Addressing Gaps

The FDIC has undertaken several initiatives to reshape its workforce, including reorganizations,
buyouts, and a new Corporate Employee Program and has proposed human resources
flexibilities legislation. DSC works closely with the FDIC’s Corporate University to provide
examination staff a blended mix of training and development courses, on-the job training, and
job rotational and detail opportunities. DSC has also been given limited opportunities to recruit
for specialized positions such as qualitative risk analysts associated with the implementation of
Basel II. Each of these strategies is targeted toward developing employees with skills and
competencies needed to implement the FDIC’s future business model. However, DSC lacks a
centralized competencies repository containing skills and competencies information for
individual employees. Such a repository could assist the FDIC in identifying and assessing the
depth of skills gaps, particularly under the new CEP.

GAO notes that once an agency identifies the critical skills and competencies that its future
workforce must posses, the agency can develop strategies tailored to address gaps in the
number, skills and competencies, and deployment of the workforce and the alignment of human
capital approaches that enable and sustain the contributions of all critical skills and
competencies needed for the future. Strategies include the programs, policies, and practices
that will enable an agency to recruit, develop, and retain the critical staff needed to achieve
program goals. Developing such strategies creates a road map for an agency in moving from
the current to the future workforce needed to achieve program goals. When considering
strategies, it is important for agencies to consider the full range of flexibilities available under
current authorities, as well as flexibilities that might need additional legislation before they can
be adopted.




                                                16
                                                                               Evaluation Results


Corporate Initiatives to Reshape the Organization

Over the past few years, the FDIC has taken several steps to reshape its workforce, including:

Reorganizations: In 2002, the FDIC substantially revamped its internal organizational structure to
improve operational efficiency and unify corporate efforts in each of the three major business lines:
insurance, supervision, and receivership management. Among other actions, DSC reconfigured its
regional and field office structure by converting 2 of its 8 regional offices to area offices and by
closing 6 of its 90 field offices. DSC also delegated a number of functions, such as signing reports
of examination and processing applications for deposit insurance, to lower organizational levels at
the regional and field office level.

Buyouts: In 2002 and again in 2004, the FDIC initiated a buyout program to reduce the number of
staff in surplus positions. The 2002 buyout was focused on completing the lengthy downsizing
effort required from the 1996 merger of the FDIC and the Resolution Trust Corporation.
Approximately 674 employees participated in the 2002 buyout. According to the staffing strategy,
approximately 241 DSC employees took advantage of separation incentives during 2002, primarily
at the headquarters office.

In October 2004, the COO announced a buyout to reduce 500-600 positions by year-end 2006,
with the most substantial reductions targeted for DRR, DIT, and DOA. DSC limited the 2004
buyout to 100 positions and limited buyout participation to assistant regional directors, case
managers, and non-supervisory examiners and excluded specialist positions such as special
activities case managers and IT and trust examiners. The DSC Director noted that the buyout
offered DSC a unique opportunity to support the Corporate Employee Program (discussed on the
next page) and that the vacancies resulting from the buyouts will be used to provide initial positions
for the Corporate Employee Program.

Workforce Planning for the Future and Vacancy Management Policy: In October 2003, the COO
and Chief Financial Officer instituted a new policy, Managing Positions in a Downsizing
Environment, setting forth several steps to be considered before filling vacant positions. The
COO’s August 2004, Workforce Planning for the Future memorandum revisited vacancy
management and announced that the Corporation had established a goal to abolish at least half of
all current and future vacancies over an 18-month period—a step toward achieving a reduction in
authorized staffing levels in most divisions and offices.

As discussed earlier, in August 2004, the DSC Director issued a message to DSC employees
announcing that DSC was positioning its workforce to reflect the trends in the financial services
sector toward larger, more complex financial institutions. The DSC Director noted that “This shift
will continue as we dedicate increased resources to quantitative risk assessment, the
implementation of Basel II, and enhanced on-site presence at some large institutions. We are also
devoting increased resources to combat terrorist financing and financial crimes.” The Director also
indicated that DSC would regularly review projected workload assumptions, conduct a skills-gap
assessment and staffing analysis, and carefully review current staffing levels and evaluate each
vacancy to determine whether and how it should be filled. The Director indicated that DSC would
plan to hire one examiner for every three who left the Corporation.




                                                 17
                                                                                           Evaluation Results


Corporate Employee Program: In October 2004, the COO announced a new corporate program
for “… developing a workforce with a corporate perspective that works collaboratively to
accomplish mission critical functions and is capable of responding rapidly to changes in workload.”
A goal of the CEP was to create a culture that both encourages and rewards cross-divisional
opportunities and experience in multiple disciplines.
The CEP will initially focus on cross-training employees    The basic parameters of the CEP include:
in the supervision and receivership business lines.
Over time, both entry-level and mid-career-level            •   a formal commissioning process for at
                                                                least three fundamental skill sets
employees will have training and experience in multiple         required within the FDIC: risk
disciplines or business lines. The CEP will include             management examiners, compliance
three initial strategies:                                       examiners, and resolutions and
                                                                          receivership specialists; and
(1) A voluntary DRR-to-DSC crossover program to
                                                                     •    opportunities and incentives for
    begin to integrate key corporate skill sets across                    employees to have on-the-job training
    business lines. DRR staff will be able to apply for                   and work experience including
    an “in-service” training program in DSC to obtain                     opportunities to become
    commissioned examiner status.                                         commissioned, in more than one of
                                                                          these three specialty areas.
(2) Voluntary rotational assignments of DSC                     Source: October 2004 message from the
    examiners to DRR to earn a commission in                    COO announcing the CEP.
    resolutions and receiverships work. In the event of
    a significant increase in resolutions workload, DRR
    would have a first-priority right to call on these specialists.

(3) New criteria for hiring and training employees in the business line divisions in the form of
    “corporate employees” under term appointments. These employees will pursue commissioned
    examiner status and will simultaneously receive some training in resolution and receivership
    functions. The employees would be eligible to compete for available permanent positions
    within the Corporation.

Human Resources Flexibilities: Finally, in September 2004, the FDIC submitted proposed
legislation to the Congress for more flexibility to manage the FDIC’s human resources while
responding to a rapidly changing financial services industry. Table 5 summarizes proposed key
changes.

Table 5: Summary of Proposed Key Changes in the FDIC Workforce 21 Act of 2004
 Key Changes Proposed
     •   First, the legislation would provide the FDIC with independent hiring authority. This would allow FDIC to
         streamline the hiring process, while not waiving, modifying or otherwise affecting merit system
         principles or applicable whistleblower provisions and equal employment opportunity laws.

     •   Second, it would give FDIC greater flexibility in using term appointments while establishing parameters
         to ensure that they were used to address specific workforce needs. Using this authority, FDIC could
         hire a term employee and convert the employee to a permanent appointment in the competitive service
         within the FDIC without further competition. This authority would also allow FDIC to augment our
         workforce with trained permanent staff when needed, or to reduce FDIC’s workforce when there is not
         enough work to sustain additional permanent staff without conducting a reduction in force.

     •   Third, the legislation would authorize the FDIC to rehire and pay retired federal annuitants without
         those annuitants suffering a reduction of their annuities during the course of their employment. It would
         allow FDIC to staff up quickly with experienced, but retired, former employees, should the need arise.




                                                        18
                                                                                               Evaluation Results



 Key Changes Proposed
     •   Fourth, it would allow FDIC to hire highly qualified experts and consultants quickly and for longer
         periods of time than ordinarily allowed by federal agencies. Employees hired under this authority would
         be able to serve up to five years and could be extended for one additional year in appropriate
         circumstances. These employees would be used to meet critical needs of the Corporation when
         existing employees do not have the requisite skills or knowledge.

     •   Fifth, the legislation would give the FDIC similar latitude in hiring its executives as the rest of the federal
         government has generally had to hire employees in the Senior Executive Service (SES). While the
         FDIC has no positions that are part of the SES, this amendment recognizes that FDIC executives play
         a parallel role at the FDIC.

     •   Sixth, it would authorize the FDIC to develop its own reduction-in-force and early-out regulations in
         connection with determinations to realign, reorganize or reduce our workforce. FDIC would continue to
         consider performance, veterans’ preference, tenure of employment and length of service, along with
         such other factors as the Corporation deems necessary and appropriate. The FDIC would be allowed
         to make its own early-out determinations, but no more than 10 percent of the workforce would be
         permitted to take early retirement in each fiscal year.

     •   And, finally, the FDIC would be allowed to establish its own appeals process for employees subject to
         misconduct or unsatisfactory performance disciplinary actions, consistent with merit and fitness
         principles. The Corporation could streamline the rules and procedures for taking adverse actions, while
         continuing to ensure that employees receive due process and fair treatment.
Source: August 2004 FDIC News.

If passed, the above flexibilities would have a profound effect on the FDIC’s ability to adjust its
workforce in response to industry demands.

DSC Strategies for Preparing Its Workforce and Addressing Identified Gaps

The training of pre-commissioned examiners and the ongoing professional development of
commissioned examiners are among DSC’s top priorities. Ongoing training ensures that DSC
examiners have the knowledge, skills, and abilities to perform the mission-critical work of the
division. DSC employs a blended approach to training that
consists of on-the-job training, classroom training, and self-      DSC recognizes that training
directed study.                                                     is an essential component of
                                                                                      employee development and
                                                                                      effective bank supervision.
The FDIC’s Corporate University is the training and employee                          Therefore, DSC is committed
development arm of the FDIC and supports the Corporation’s                            to developing and maintaining
mission and business objectives through continuous learning                           a qualified examination
and development. The Corporate University manages five                                workforce. DSC provides its
                                                                                      employees with equal access
schools, including the School of Supervision and Consumer                             to training and developmental
Protection that supports core examiner training programs and                          opportunities.
speciality training programs. The school is responsible for the
design, development, and delivery of 10 core classes for FDIC                         Source: DSC Training
examiners and non-FDIC federal and state banking examiners.                           Statement.


DSC has also established a Training Oversight Committee, consisting primarily of deputy
directors and regional directors, to oversee DSC’s training program and related initiatives and a
Course Oversight Group, consisting primarily of assistant regional directors, which oversees
DSC’s core examiner schools.




                                                           19
                                                                                           Evaluation Results


DSC’s Examiner Training and Development Policy, updated in August 2004, provides the basis
for uniformity in regional training practices for both the risk management examiner and
compliance examiner career paths. DSC regional directors are responsible for ensuring that
regional training and development practices adhere to FDIC and DSC policies and procedures
and meet organizational goals and objectives. Field supervisors and supervisory examiners
also work cooperatively to assess training needs, determine appropriate program activities, and
evaluate the effectiveness of activities.

The policy sets forth a detailed training and development path for risk management and
compliance examiners. Specifically, examiners must successfully complete several core
examination schools, a technical evaluation (risk management examiners only), and a career
development plan. Non-commissioned examiners must also demonstrate satisfactory on-the-
job performance and receive a field supervisor recommendation before being promoted to a
commissioned risk management or compliance examiner.

DSC’s training policy also provides guidance for specialty examiners, such as capital markets
specialists, IT examiners, and trust examiners. The policy notes that training and development
activities should focus on developing and maintaining technical knowledge and skills in
designated examination specialty areas and that maintaining competency in those areas is
critical to the success of the examination program. The policy concludes that specialty
examiners should receive exposure to key regulatory and industry seminars and conferences
and that specialty examiners may also participate in industry certification programs as
appropriate. In addition, Table 6 identifies Regional Directors Memoranda related to developing
expertise in specialty areas.

Table 6: Regional Directors Memoranda for Specialty Examiner Positions
Title                      Purpose
RDM 04-024, National Trust        To develop trust expertise nationwide and to allow the sharing of examiner
Program, dated 4/12/04            resources nationwide and to provide training opportunities.
RDM 03-052, Information           Revision to the 1997 program to provide examiners additional training in
Technology On-The-Job             information systems examination concepts.
Program, dated 12/08/03
RDM 02-026, Information           Flexible training program for IT Specialists to replace the classroom-based
Technology Flexible Training      advanced information systems training previously offered in Washington, D.C.
Program, dated 6/13/02            The Program is designed to meet specific educational needs and to keep pace
                                  with emerging technologies and banking industry trends and permits each region
                                  to select and host IT training that is uniquely appropriate for their IT Specialists.
RDM 98-068, Electronic Banking    To expand the E-banking subject matter expert (SME) program. The program
Subject Matter Experts, dated     was developed to supplement Information Systems (IS) resources and meet the
7/30/98                           increased need for technical expertise. The regions initially designated
                                  30 examiners as E-banking SMEs. This RDM expanded the program to recruit
                                  new E-banking SMEs.
RDM 04-028, Introduction of the   ECEP replaces the former Commissioned Examiner Seminar and expands
Examiner Continuing Education     opportunities for seasoned examiners to broaden their knowledge base and
Program (ECEP), dated 6/16/04     remain informed on emerging issues. The ECEP delivers Web-based training on
                                  various supervisory topics, including Capital Markets (derivatives and asset-
                                  backed securities) and BSA and the USA PATRIOT Act.
RDM 04-046, 2004 Bank             To distribute guidelines and procedures for completing mandatory training of
Secrecy Act, Anti-Money           Web-based curriculum consisting of externally-provided courseware, internally-
Laundering, and USA PATRIOT       developed presentations, and reinforcing exercises related to BSA, anti-money
Act Training Initiative, dated    laundering, and the USA PATRIOT Act.
10/18/04
Source: OIG Analysis of RDM.




                                                       20
                                                                            Evaluation Results


Assessing the effectiveness of the Corporate University was beyond the scope of our
evaluation. However, our ongoing Evaluation of FDIC’s Corporate University, will evaluate the
degree to which the Corporate University has implemented training programs and other
developmental opportunities to help the FDIC build the competencies needed to achieve its
mission and strategic goals and the overall cost-effectiveness of the Corporate University
structure in comparison to initial goals and industry benchmarks.

DSC also addresses staffing needs and skills imbalances through the recruiting process. DOA
has overall responsibility for the recruitment and hiring of all FDIC staff and has established a
Corporate Recruiting Program that designated individuals as “National Recruiters” and identified
a list of ‘Key Schools” targeted for recruiting. DSC issued RDM 2004-006, Changes in DSC
Recruiting Procedures, dated March 24, 2004, which (1) noted that 57 of the 58 National
Recruiters are DSC personnel, (2) instituted changes to provide more flexibility to the regions in
recruiting, (3) reduced the time involved in the hiring process, and (4) enhanced diversity hiring
efforts.

We saw evidence that DSC used its training and recruiting strategies to address identified skills
gaps as illustrated below:

•   In conjunction with its efforts to increase its level of BSA expertise, DSC issued RDM
    04-046, 2004 Bank Secrecy Act, Anti-Money Laundering, and USA PATRIOT Act Training
    Initiative, dated October 18, 2004, which required all risk management professional staff and
    case managers to complete formal computer-based training by the end of 2004.

•   As part of the 2005 corporate planning and budgeting process, the FDIC granted authority to
    increase staffing related to its Large Bank Program and the implementation of Basel II.
    Specifically, the FDIC’s 2005 budget included $3.3 million to increase staffing for the Large
    Bank Program and $2.6 million for additional financial analysts and risk modeling specialists
    associated with the implementation of Basel II. As discussed previously, DSC established
    the SQRA position to meet this need. In late September 2004, the FDIC issued a vacancy
    announcement for multiple positions in headquarters, regional, and area offices for SQRAs
    at the CG-14 and CG-15 level. The positions were open to FDIC permanent employees in
    the competitive service.

Need for a Centralized Competencies Repository

Although DSC has defined desired competencies for its general and specialty examiners and
has developed strategies for addressing skills gaps, DSC, and the Corporation as a whole, does
not have a centralized repository for maintaining competency, skills, and experience information
for individual employees. A centralized repository would assist the FDIC in targeting training
and recruiting efforts, including determining the number of employees with particular training
needs as well as readily assessing the depth of staff possessing particular competencies or
experiences. The Corporation’s effort to develop “corporate employees” with expertise in
multiple business lines only heightens the need for such a repository.

The Corporate University currently maintains a training server that houses training-related
information, including the specific courses that individual employees have completed. We
concluded that the training server could be enhanced to serve as a competencies repository.




                                               21
                                                                              Evaluation Results


Recommendation:

4. We recommend that the Director, DSC, coordinate with the Human Resources Branch and
   the FDIC’s Corporate University to determine the feasibility of using the training server to
   capture workforce planning information related to competencies, skills, and prior work
   experiences.


Monitoring and Evaluating Progress

The FDIC and DSC have several mechanisms for monitoring and evaluating the success of
corporate and divisional initiatives, including initiatives related to workforce planning. These
mechanisms include the HRC; corporate and divisional performance objectives; training and
recruiting oversight entities; and the DSC Scorecard, a performance measurement initiative
described later in this section of the report. However, it is not clear how these mechanisms
interrelate to measure the success of DSC’s workforce planning efforts. DSC should define,
within the staffing strategy, what mechanisms are used to gauge the division’s progress in
reaching its workforce planning goals and how contributions toward the achievement of
programmatic goals from individual initiatives and activities should be measured.

GAO has reported that high-performing organizations recognize the fundamental importance of
measuring both the outcomes of human capital strategies and how these outcomes have helped
organizations accomplish their missions and program goals. Performance measures,
appropriately designed, can be used to gauge two types of success: (1) progress toward
reaching human capital goals and (2) the contribution of human capital activities toward
achieving program goals. Identifying both types of measures and discussing how the agency
will use these measures to evaluate strategies help agency officials think through the scope of,
timing for, and possible barriers to evaluating workforce planning initiatives. Periodic
measurement of an agency’s progress toward human capital goals and the extent to which
human capital activities contribute to achieving program goals provides information for effective
oversight by identifying performance shortfalls and appropriate corrective actions.

Mechanisms for Monitoring and Evaluating Corporate and Divisional Initiatives

We identified several mechanisms at the corporate and divisional levels that DSC uses to
monitor the success of FDIC and DSC initiatives, including initiatives directly related to human
capital and workforce planning:

• Human Resources Committee: As discussed earlier, at the corporate level, the HRC provides
  strategic direction and leadership for workforce planning and is responsible for developing
  policy recommendations and monitoring the implementation of the human resources initiatives.

• Corporate Performance Objectives and Divisional Initiatives: The FDIC develops annual
  corporate performance objectives that are approved by the FDIC Chairman. DSC, in turn,
  develops separate divisional initiatives that help to implement the corporate performance
  objectives. We reviewed the 2004 divisional initiatives and identified a number of initiatives
  related to human capital and workforce planning. Each of the initiatives were assigned to
  specific DSC points of contact and included action plan items and planned completion
  milestones, actual completion dates, and quarterly summaries detailing the status of the
  initiative. Table 7 presents selected examples.




                                                22
                                                                                           Evaluation Results


Table 7: Examples of Divisional Initiatives Related to Human Capital or
Workforce Planning
 Divisional Initiative                         Action Items Detailed in the Initiative
 Implement the retiree contract program in     • Select an oversight manager, complete a statement of work, and
 which retired examiners would be hired          begin a competitive bid process.
 back on a contract basis to perform           • Determine which businesses employ former examiners.
 examination duties.                           • Evaluate workloads to determine regions requiring assistance.
 Develop the concept of the FDIC Banc, the     • Meet with division representatives to determine training needs.
 FDIC’s “Virtual Bank” concept; if approved,   • Conduct benchmarking visits to determine the level of technology
 begin hands-on training sessions in the         and virtual learning available within the industry.
 new facility.                                 • Prepare background, proposal, and action plan and provide to the
                                                 Corporate University Governing Board for approval.
                                               • Coordinate with DRR and an outside contractor to prepare a
                                                 prototype learning module.
 Develop a national trust program to provide   • Issue RDM announcing program.
 resources and expertise for the               • Announce expression of interest for program participants.
 examination of the largest and most           • Review participants and regional feedback and evaluate the
 complex trust departments.                      program (on a quarterly basis over an 18-month period).
 Maintain skill levels of accounting           • Participate in a 2004 Capital Markets Specialist Conference.
 specialists, capital markets specialists, and • Hold separate annual trust, capital markets, and accounting
 other subject matter experts on emerging        subject matter expert meetings.
 issues and current developments in their      • Hold breakout sessions at a regional office training conference.
 designated specialty areas.
Source: OIG Analysis of 2004 DSC Divisional Initiatives.

• Training Oversight Entities: The FDIC’s Corporate University efforts are monitored by a
  Governing Board, consisting of Deputies to the FDIC Chairman, division directors, and other
  selected executives; and deans, including the Dean for the School of Supervision and
  Consumer Protection, who help to ensure the integration and alignment of Corporate
  University activities with the interests of operating units.

 DSC established the Training Oversight Committee, consisting primarily of deputy directors
 and regional directors, to oversee DSC’s training program; and the Course Oversight Group,
 consisting primarily of assistant regional directors, to review class materials and observe class
 instructors to ensure quality of training and consistency with corporate policies.

• Recruiting Efforts: DSC RDM 2004-006, Changes in DSC Recruiting Procedures, proposed
  creating an internal review committee staffed by senior DSC managers from each region and
  headquarters to monitor recruiting results.

• DSC Scorecard: The DSC Scorecard is a results-oriented, quantitative measure of
  examination efficiency that measures various work flows and products. The scorecard tracks
  examination hours, delinquencies, and report turnaround and allows for comparisons of the
  performance of individual territories and performance at the regional and national levels. DSC
  management uses the tool to measure performance and identify areas for improvement.

Nevertheless, it was not apparent to us how DSC uses these various mechanisms to measure
the success of its workforce planning efforts. We concluded that DSC could expand its staffing
strategy to include a discussion of the mechanisms used to gauge the division’s progress in
reaching its workforce planning goals. Further, this discussion could include guidance for the
types of performance measures and gauges of success that DSC would expect to see for
individual initiatives in order to assess each initiative’s success and contribution toward the



                                                         23
                                                                            Evaluation Results


achievement of program goals. Corporate planning and budgeting meetings for 2005 have
focused on streamlining the number of performance measures and the performance measure
reporting process. Establishing a framework to define the various mechanisms used for
monitoring and evaluating workforce planning could identify areas where performance
measures are duplicative or are in conflict with one another.

Recommendation:

5. We recommend that the Director, DSC, document within DSC’s Long Term Staffing Strategy
   the various mechanisms that DSC uses to monitor and measure the success of its human
   capital and workforce- planning-related initiatives and activities and expectations for how
   DSC should measure the contribution of individual workforce planning initiatives to the
   achievement of corporate and divisional program goals.



Corporation Comments and OIG Evaluation
On March 14, 2005, the Director, DSC, provided a written response to the draft report, which is
presented in its entirety in Appendix II of this report. Appendix III presents a summary of the
FDIC’s responses to our recommendations.

DSC generally concurred with recommendations 1, 3, 4, and 5 in these respective areas:
   • updating, finalizing, and communicating the Long Term Staffing Strategy;
   • consulting with DOA and evaluating the need for conducting a formal skills assessment;
   • coordinating with DOA and the Corporate University on the feasibility of using the
      training server to capture workforce planning information related to competencies, skills,
      and prior work experiences; and
   • documenting within the Long Term Staffing Strategy the various mechanisms that DSC
      uses to monitor and measure the success of its human capital and workforce-planning-
      related initiatives and activities.

DSC partially concurred with recommendation 2 to validate and begin using the National
Staffing Model and responded that it was in the process of making changes to the model
resulting from changes in DSC business processes. DSC noted that it may be premature to
begin using the model and offered an alternative action to test the model and evaluate its
reliability as a forecasting tool to the extent possible during 2005 and provide a progress
memorandum to the Director, DSC, by year-end 2005. DSC noted that it may choose to
continue to test and refine the model rather than fully implementing it in 2005. DSC’s alternative
action meets the intent of our recommendation to develop and implement a reliable and
accurate staffing model.

The actions underway and planned by DSC management are responsive to our
recommendations. The recommendations are resolved but will remain undispositioned and
open until we have determined that agreed-to corrective actions have been completed and are
effective.




                                               24
                                                                                      Appendix I



Objective, Scope, and Methodology
The objective of this evaluation was to assess DSC’s efforts to:

•   determine critical skills and competencies needed to achieve current and future corporate goals
    and objectives,
•   identify gaps in skills and competencies that need to be addressed, and
•   develop strategies to address current gaps in skills and competencies and future workforce
    needs.

To accomplish our objective, we did the following:

•   Reviewed relevant human capital guidance from the OPM, GAO and the OMB to gain an
    understanding of human-capital-related concepts and workforce planning criteria.
•   Reviewed DSC’s Strategic Plan, Annual Performance Plan, Annual Corporate Objectives,
    and DSC divisional initiatives to identify DSC’s workforce planning objectives and goals
    related to human capital.
•   Interviewed DSC’s officials and key corporate stakeholders to understand their roles and
    views of the process.
•   Met with selected HRC members to obtain an understanding of how the corporate workforce
    planning issues relate to and are integrated with DSC’s ongoing workforce planning efforts.
•   Met with officials at the FDIC’s Corporate University to understand their role in identifying
    and meeting the training needs of DSC employees.

As part of our assessment of DSC’s workforce planning process, we also obtained and
reviewed documents that influence DSC’s workforce planning efforts, including DIR’s Future of
Banking studies, Government Performance and Results Act goals and objectives, HRC
initiatives, DSC’s process redesigns efforts, and other DSC pilot programs.

We conducted our evaluation from June to December 2004 in accordance with generally
accepted government auditing standards.




                                                 25
Appendix II
     Appendix II




27
     Appendix II




28
                                                                                                                                               Appendix III




Management Responses to the Recommendations
This table presents the management responses on the recommendations in our report and the status of the recommendations as of the
date of report issuance.

                                                                                                                                                     Open
                                                                                                                       a
 Rec.                                                                          Expected          Monetary    Resolved:      Dispositioned:b            or
Number            Corrective Action: Taken or Planned/Status                 Completion Date     Benefits    Yes or No         Yes or No            Closedc
              DSC is updating its staffing strategy to incorporate the
      1       October 2004 Corporate Employee Program and
              implications from the Relationship Management                  December 31, 2005      $0          Yes                No                Open
              Program when it is implemented. DSC will
              communicate the updated strategy to DSC corporate
              managers and employees by year-end 2005.
      2       DSC is in the process of making changes to the                 December 31, 2005      $0          Yes                No                Open
              staffing model. DSC will test the model and evaluate
              its reliability as a forecasting tool to the extent possible
              during 2005 and provide a progress memorandum to
              the Director, DSC, by year-end 2005.
      3       DSC is working closely with DOA and CU to identify             December 31, 2005      $0          Yes                No                Open
              skill sets and necessary training. DSC will evaluate
              the ROPES project results to verify the benefits of the
              project by year-end 2005.
              DSC will coordinate with CU to identify the feasibility        December 31, 2005      $0          Yes                No                Open
      4       of a centralized repository for specialized experience
              and training of DSC’s workforce by year-end 2005.
              Concurrent with DSC’s review and update of the                 December 31, 2005      $0          Yes                No                Open
      5       staffing strategy, DSC will document the mechanisms
              that measure workforce planning initiatives and
              achievements.
a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered
                   resolved as long as management provides an amount.
b
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.




                                                                                    29
